           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      SOCIAL SECURITY NUMBER
   INTEGRITY: AN IMPORTANT LINK
       IN HOMELAND SECURITY

     May 2002   A-08-02-22077




  MANAGEMENT
 ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                   SOCIAL SECURITY
MEMORANDUM

Date:   May 9, 2002

To:     The Commissioner

From:   Inspector General

Subject: Social
              Security Number Integrity: An Important Link in Homeland Security
        (A-08-02-22077)


        OBJECTIVE

        The objective of this Management Advisory Report is to provide information regarding
        (1) how Social Security number (SSN) integrity has become a critical element in the
        protection of our homeland, (2) what the Social Security Administration (SSA) and
        SSA's Office of the Inspector General (OIG) have done to ensure the SSN's integrity,
        and (3) what tasks remain in this important effort.

        BACKGROUND
        As the Office of Homeland Security stated in its report, Securing the Homeland,
        Strengthening the Nation, “The Government of the United States has no more important
        mission than fighting terrorism overseas and securing the homeland from future terrorist
        attacks.” Federal agencies, including SSA, have embraced this challenge—one of
        monumental scale and complexity. We believe strengthening SSN integrity is one way
        in which SSA can make an important contribution to this national goal.

        In the past, OIG has issued numerous reports addressing SSN integrity (Appendix A).
        These reports included recommendations that addressed vulnerabilities in several SSA
        processes including SSN assignment and issuance, employer wage reporting, and
        death master file reporting and issuance. SSA elected to implement many of these
        recommendations. Additionally, after the events of September 11, 2001, SSA revisited
        its position on many prior OIG recommendations that it had either not yet implemented
        or disagreed with. In several cases, SSA decided to escalate the implementation of
        some recommendations, while it reversed its position on others.
Page 2 – The Commissioner


SCOPE AND METHODOLOGY
In preparing this report, we obtained and reviewed information from various sources,
including the Office of Homeland Security’s web site, previous OIG reports, statistics
and case summaries from our Office of Investigations and Fraud Hotline, and
preliminary drafts of certain legislation. Although we did not perform an audit of a
specific SSA entity, most of the information contained herein relates to responsibilities
of the Office of Program Benefits under the Deputy Commissioner for Disability and
Income Security Programs. We performed this work in March 2002 in accordance with
the President’s Council on Integrity and Efficiency’s Quality Standards for Inspections.

RESULTS OF REVIEW
We have long been aware that failure to protect the integrity of the SSN has enormous
financial consequences for the Government, the people, and the business community.
We now know that shortcomings in the SSN issuance process can have far graver
consequences than previously imagined. The difficult lessons of September 11, 2001
have taught us that SSA can no longer afford to operate from a "business as usual"
perspective. Whatever the cost, whatever the sacrifice, we must protect the number
that has become our national identifier; the number that is the key to social, legal, and
financial assimilation in this country.

We recognize SSA alone cannot resolve the monumental issues surrounding homeland
security. Efforts to make our Nation safer will involve new or expanded initiatives by
almost every segment of our population, including State and local governments, private
industry, non-governmental organizations, and citizens. However, we also recognize
that, in endeavoring to protect our homeland, no Government system or policy should
be ignored. As such, SSA, as a Federal agency and public servant, must resolve to
review its systems and processes for opportunities to prevent the possibility that anyone
might commit or camouflage criminal activities against the United States. We believe
SSN integrity is a link in our homeland security goal that must be strengthened.

HOW DOES SSN INTEGRITY IMPACT HOMELAND SECURITY?

                                 In the weeks following September 11, concerned citizens
 How can we assist the           across the Nation asked many questions about the
 Administration’s efforts        terrorists. For example, how were these individuals able
 to investigate the initial      to assimilate into our society? What documentation
 attacks and prevent             allowed them to do so, and how did they obtain it? Are
 future attacks?                 there more terrorists hiding in the United States, and, if
                                 so, how can law enforcement officials locate them? Who
are their supporters in the United States? Most importantly, many asked “how can we
assist in efforts to investigate the attacks and prevent future attacks?”
Page 3 – The Commissioner


For SSA’s OIG, the answer to many of these questions revolved around one item―the
SSN. A unique set of nine numbers assigned to almost everyone in the United States.
In fact, today, approximately 300 million people have an SSN. The SSN is critical to
SSA’s implementation of its programs and operations. While this was originally the
SSN’s only intended use, the SSN quickly became our de facto national identifier, used
as a key means of identification in both the public and private sectors.

As use of the SSN has grown, so has its misuse. Because the SSN is so heavily relied
upon as an identifier, it is a valuable commodity for criminals. It can be obtained
illegally in many ways: presenting false documentation to SSA; stealing another
person's SSN; purchasing an SSN on the black market; using the SSN of a deceased
individual; and creating a nine-digit number out of thin air. As we have learned through
the terrorist investigations, even a legally obtained SSN can be used to facilitate an
unlawful act.

In Fiscal Year 2001, OIG’s Fraud Hotline received over 115,000 allegations of fraud. Of
this total, over 55 percent were allegations of SSN misuse. Examples of this type of
fraud include use of an improperly obtained SSN to obtain a driver's license or a credit
card, open a bank account, or secure a loan. The remaining allegations were of
program or employee fraud, receipt of Social Security benefits, or other fraud having a
direct effect on the Social Security Trust Fund. Experience has shown that these cases
often also include implications of SSN misuse.

Given the magnitude of such allegations and competing priorities, OIG is regrettably
unable to investigate a large percentage of the possible criminal violations involving
SSN misuse. Nevertheless, in response to the September 11 attacks, we have
committed extensive resources to investigating cases in which SSNs may have been
used to facilitate or camouflage terrorist crimes. The following examples summarize a
few of the many cases we pursued involving SSN misuse and possible terrorist activity
or connections. These cases also illustrate SSA’s vulnerability to counterfeit evidentiary
documents that individuals sometimes use to inappropriately obtain an SSN.

ü On December 6, 2001, a Federal Grand Jury in Phoenix, Arizona, returned a
    41-count indictment against an individual for, among other crimes, 2 counts of
   Furnishing False Information as an Identity to Obtain an SSN and 25 counts of Using
   an SSN Assigned to Someone Else. The Investigation revealed that the individual, a
   licensed commercial pilot, obtained an initial SSN in July 1992 in Mesa, Arizona. In
   August 1999, the individual used a counterfeit Somali passport in another name to
   obtain an additional SSN.

   The indictment stated the individual interchanged the names and SSN's on a variety
   of official documents, including Federal Aviation Administration documents. He also
   obtained driver's licenses in both names and used both identities on a variety of loan
   and credit card applications, leases and more.
Page 4 – The Commissioner


ü Based on a referral from an SSA field office employee, SSA’s OIG and other law
   enforcement agencies arrested an individual for possessing counterfeit documents,
   violating the Immigration and Nationality Act, and filing a fraudulent SSN application.
   The individual had a Pakistani passport that contained a counterfeit non-immigrant
   U.S. visa and a counterfeit I-94, Arrival/Departure Record. He also had a genuine
   SSN card; a counterfeit, blank SSN card; a counterfeit Alien Registration card; and
   numerous credit cards.

   The individual obtained the genuine SSN card by submitting an application to SSA
   with the counterfeit non-immigrant visa as proof of his immigration status. The
   suspect stated he filed for an SSN twice. The first time he filed, he was denied, but
   he received an SSN on his second try at a different SSA field office. The suspect
   purported to have paid $1,200 for the counterfeit U.S. visa and SSN card.

In addition, our Office of Audit (OA) is conducting an audit in which we are reviewing
SSA’s procedures for verifying documents submitted with SSN applications. Although
we plan to issue the final report in the Summer of 2002, preliminary results indicate that
approximately 8 percent (over 100,000) of the 1.2 million original SSNs assigned to
non-citizens in Calendar Year 2000 may have been based on invalid immigration
documents. We believe results and examples like those cited above illustrate the
necessity to verify all evidentiary documents submitted with SSN applications. We
recognize SSA is moving toward this goal; however, we are concerned that delays in
implementation could result in thousands more improperly assigned SSNs.
Accordingly, we urge the Agency to establish a firm time frame by which it will commit to
independently verifying all immigration documents before assigning an SSN.

WHAT STEPS HAVE SSA AND OIG TAKEN TO ADDRESS THIS CRITICAL ISSUE?

Both SSA and OIG promptly accepted the challenge of addressing the Agency’s role in
homeland security. Recognizing the SSN’s importance in non-citizens’ assimilation in
U.S. society, SSA established an Enumeration Task Force to examine and establish
policy that would strengthen the Agency’s procedures. As a member of this Task Force,
OIG has shared many insights and ideas with the Agency, which we believe will help
increase the integrity of the enumeration process. Additionally, since moments after the
initial terrorist attacks, OIG has been fully engaged in investigating these crimes. We
assisted in search, rescue and recovery efforts, and we devoted extensive resources to
developing information regarding possible co-conspirators in the attacks. As evidenced
by our actions, SSA and OIG are committed to bringing to justice individuals who
participated in these terrible acts and improving procedures for ensuring SSN integrity,
thereby strengthening our link in the homeland security chain.

ENUMERATION TASK FORCE

The Enumeration Task Force is re-examining the entire enumeration process, including
previous OIG recommendations, to identify ways SSA can strengthen its enumeration
policies and procedures. On November 1, 2001, SSA’s then-Acting Commissioner
issued a memorandum to SSA executive staff announcing seven reforms the
Page 5 – The Commissioner


Enumeration Task Force recommended and the Agency would implement to address
enumeration-related vulnerabilities. In that memorandum, the Acting Commissioner
committed that SSA would institute these reforms by February 2002. Additionally, the
Enumeration Task Force added another planned initiative to the list after the
November 2001 memorandum, bringing the total short-term projects to eight. SSA has
implemented several of these initiatives, while others have been delayed. A chart
containing the status of each initiative is included as Appendix B. These initiatives are
as follows.

1. Provide refresher training on enumeration policy and procedures, with emphasis on
   enumerating non-citizens, for all involved staff.

2. Convene a joint task force between SSA, the Immigration and Naturalization Service
   (INS), the Department of State (DoS), and the Office of Refugee Resettlement to
   resolve issues involving enumeration of non-citizens, including working out
   procedures for verifying INS documents before SSN issuance.

3. Eliminate driver’s licenses as a reason for a non-work number.

4. Provide an alternative to giving out a Numident printout for SSN verification.

5. Lower the age tolerance from age 18 to age 12 for mandatory interview procedures,
   including verification of birth records before enumeration for all applicants age 1 and
   over for original SSNs and require evidence of identity for all children, regardless of
   age.

6. Determine the feasibility of photocopying (or scanning) all documentary evidence
   submitted with SSN applications.

7. Change the Modernized Enumeration System to provide an electronic audit trail,
   regardless of the mode used to process SSN applications.

8. Implement the SSN Verification System.

OIG INITIATIVES

OIG has taken the challenge of addressing homeland security and the SSN’s role in this
endeavor seriously. We are committed to providing whatever assistance we can in
bringing to justice those who committed the unfathomable terrorist acts against our
Nation. Additionally, we will provide whatever knowledge and resources we have to
affect significant changes in Federal programs so that not one more terrorist can use
our own systems and processes to facilitate such crimes. As evidenced by the myriad
efforts OIG has already taken, our resolve is deep.
Page 6 – The Commissioner


Investigative Efforts

OIG special agents, computer specialists, and attorneys have long worked closely with
Federal, State and local law enforcement officials to investigate and prosecute SSN
misuse. Since September 11, we have further increased our efforts in this area,
working aggressively to support the Administration's efforts to investigate the attacks
and prevent future incidents. Examples of our efforts follow.

ü Within minutes of the attack on the World Trade Center, the Special Agent-in-
   Charge for OIG New York Field Division contacted the Federal Bureau of
   Investigation (FBI), offering the services of all the special agents under his
   command. In the days following the attacks, several of these special agents
   assisted in search, rescue and recovery efforts at Ground Zero.

ü Nationally, OIG has been an active participant in the FBI’s Joint Terrorism Task
   Force. We have provided round-the-clock support to the national criminal
   investigation of the terrorist attacks. Our special agents, computer specialists, and
   attorneys have helped identify, detain, indict, and convict individuals who may have
   a relationship with terrorist activities.

ü OIG quickly assigned its agents in the New York/New Jersey area to the FBI
   investigation. Additionally, OIG had representatives assigned to the FBI’s Strategic
   Information and Operations Center and to the National Infrastructure Protection
   Center. The OIG’s Electronic Crimes Team assisted the FBI, while our computer
   specialists wrote programs to more specifically query SSA’s data bases for FBI-
   requested information. Additionally, OIG agents fielded SSN information requests
   on suspects and witnesses, each of which was routed through the FBI’s Baltimore
   office to our Headquarters. Many SSA OIG investigators are working full-time on the
   terrorism investigation and responding to allegations of SSN misuse.

ü “Operation Safe Travel” began in September 2001 when SSA OIG agents developed
  information that individuals working at the Salt Lake City International Airport were
  misusing SSN's for security badge applications and I-9's, (Employment Eligibility
  Verification). Under the direction of the U.S. Department of Justice (DoJ),
  investigators subpoenaed records for all 9,000 airport employees with security
  badges to identify instances of SSN misuse. They identified 61 individuals with the
  highest-level security badges and 125 individuals with lower level badges who
  misused SSN's. A Federal grand jury indicted 69 individuals for Social Security and
  INS violations. Sixty-one of the 69 individuals arrested had an SSN misuse charge
  by the U.S. Attorney. On December 11, 2001, SSA’s OIG agents and other
  members of the Operation Safe Travel Task Force arrested 50 individuals. To date,
  more than 20 have been sentenced after pleading guilty to violations cited in the
  indictments. Many are now involved in deportation proceedings. There were other
  similar airport operations after the Salt Lake City Operation, and more are underway.
  In conjunction with DoJ, we are looking at other critical infrastructure facility sites.
Page 7 – The Commissioner


Audit Efforts

Our OA produced in-depth responses to two congressional inquiries assessing SSA's
policies and procedures for issuing original and replacement Social Security (SS) cards.
In early October 2001, we assessed SSA's business processes for issuing and
protecting SSNs. This assessment addressed evidence presented with SSN
applications; computerized controls; SSA's accounting for SS cards; additional training
for SSA employees; public awareness on the proper use and dissemination of the SSN;
and SSA's coordination efforts with other Federal agencies.

Later in October, we assessed SSA's programs and operations to identify counterfeit
and stolen SS cards and described SSA's coordination efforts with other Federal
agencies to identify suspected terrorists. Additionally, in October, we provided our
views to SSA’s Enumeration Task Force on techniques to improve SSN verification and
decrease incidents of identity theft with new categories of SSNs, suggestions on
photograph identifications, and additional automated controls.

Our OA is conducting a follow-up review of SSA's procedures for verifying evidentiary
documents presented by non-citizens in applying for original SSNs. We will evaluate
SSA's progress in implementing prior recommendations and also quantify the extent to
which SSA is detecting false documents presented by foreign-born individuals.

WHAT TASKS REMAIN TO ENSURE SSN INTEGRITY IN A POST-
SEPTEMBER 11TH ENVIRONMENT?

We have seen the enactment of The Identity Theft and Assumption Deterrence Act of
1998 and the Internet False Identification Prevention Act of 2000. The former is the
first Federal legislative response to the growing wave of identity thefts and imposes
criminal sanctions for those who create false identities or misappropriate someone
else’s. It is also the first piece of legislation that recognized the SSN as a means of
identification. The latter closed a loophole left by the first, enabling law enforcement
agencies to pursue those who could previously sell counterfeit SS cards legally, by
maintaining the fiction that such cards are “novelties,” rather than counterfeit
documents. Both pieces of legislation are helpful but mainly treat the identity theft
disease in its later stages, rather than at its onset. In most cases, identity theft begins
with the misuse of an SSN, and, while the ability to punish identity theft is important, the
ability to prevent it is even more critical.

How do we do this? Our audit and investigative work has shown that there are
three stages at which protections for the SSN must be put in place: upon issuance,
during the life of the number holder, and upon that individual’s death.
Page 8 – The Commissioner


Assignment/Issuance of an SSN

In Fiscal Year 2001, SSA issued over 18.4 million original and replacement SS cards.
Approximately 1.5 million of the original SSNs were issued to non-citizens. When SSA
assigns an SSN or issues an SS card, it is critical that SSA independently verify the
authenticity of the birth records, immigration records, and other identification documents
the applicant presented.

In several previous audit reports, OIG recommended independent verification of birth
and immigration records submitted to support an SSN application. Additionally, we
recommended full and expedited implementation of a joint Enumeration at Entry
program to issue SSNs to non-citizens upon their entry into the United States with the
INS and DoS. However, before September 11, the Agency disagreed with our
recommendation to independently verify birth and immigration records. The Agency
stated that delaying the receipt of SSNs for thousands of non-citizens, most of whom
were legitimately entitled to a number, was not acceptable. Rather, they preferred to
work with the INS on improving existing systems until the Enumeration at Entry program
could be implemented. Unfortunately, until September 11, SSA had little success
encouraging the INS to move quickly on either of these planned initiatives. SSA
representatives have reported that negotiations with INS are proceeding more smoothly
and at a faster pace.

SSA’s Enumeration Task Force recommended that the Agency seek independent
verification of all non-citizen documents before assigning an SSN. Additionally, the
Agency is planning to implement a process requiring verification of all U.S. birth
certificates for anyone applying for an SSN after the age of 1. We believe
implementation of these actions will have an immediate positive impact on the
assignment of SSNs based on fraudulent documents. Both recommendations were
also included in House Bill 2036, The Social Security Number Privacy and Identity Theft
Prevention Act of 2001. This legislation would require SSA to verify birth records and
provide a status report, with the Attorney General, on the joint initiative to enumerate
non-citizens at entry.

Unfortunately, full implementation of the initiative to verify immigration documents has
been delayed, perhaps for 6 months or more. SSA is waiting for the INS to incorporate
information on certain immigrants with work authorization in its data base. Additionally,
another delay will be necessary while SSA and the INS work out the details for
obtaining access to the INS' data base on non-immigrants or those who may have
temporary authorization to work in the United States. As a result, for at least several
more months, SSA will continue to issue SSNs to non-citizens without obtaining
independent verification of evidentiary documents from the issuing agency.

This continued practice concerns us greatly. We understand the agencies need
sufficient time and planning to effectively adopt the Enumeration at Entry program.
However, we strongly believe the Agency should immediately begin verifying non-citizen
documents before issuing SSNs, regardless of the time delay required for the individual
Page 9 – The Commissioner


to obtain an SSN. While SSA should strive for timely customer service, this desire must
be balanced against enumeration integrity and the security of our Nation's borders. To
emphasize the importance of the implementation of the Enumeration at Entry program,
we recently issued correspondence to the Inspectors General for DoJ and DoS asking
that they advise us of the feasibility of INS and DoS meeting the proposed due dates for
systems changes needed to support the program.

Protection During the Life of the Number Holder

Once SSA issues an SSN and it becomes an integral part of the number holder’s life, it
becomes difficult to give the SSN the degree of privacy it requires. Businesses and
Government agencies nationwide rely on the SSN as a convenient means of record
keeping. By doing so, these entities collect, store, and, sometimes, share a lifetime of
personal information associated with the number. With this information, a criminal can
commit financial fraud, and, in some cases, camouflage other crimes. The challenge for
SSA and the Congress is to find a balance between ensuring the SSN’s privacy and
ensuring that businesses and Federal and State agencies are not unduly limited in the
process. Despite this challenge, there are important steps we can take.

   ü Limit the SSN’s public availability to the greatest extent practicable,
      without unduly limiting commerce.

      We recognize it is virtually impossible to turn back the clock and limit the use of
      the SSN to Federal programs. We have, therefore, focused our efforts on limiting
      the public availability of SSN information. We have worked with Federal, State,
      and local agencies; SSA; the Congress; and the public to strengthen controls
      over the SSN and prosecute those who misuse it. Several of our
      recommendations are contained in pending legislation, including provisions in
      Senate Bill 848, the Social Security Number Misuse Prevention Act of 2001;
      Senate Bill 1055, the Privacy Act of 2001; and House Bill 2036, the Social
      Security Number Privacy and Identity Theft Prevention Act of 2001.

   ü Prohibit the sale of SSNs, prohibit their display on public records, and limit
      their use to valid transactions.

      Recent and proposed legislation addresses important elements in protecting
      one’s SSN. We support the pending legislation and encourage Congress to
      expedite such measures.

   ü Enact strong enforcement mechanisms and stiff penalties to further
      discourage SSN misuse.

      OIG special agents and attorneys have long worked closely with Federal, State
      and local law enforcement officials to investigate and prosecute SSN misuse.
      Since September 11, we have further increased our efforts in this area, working
      aggressively to support the Administration's efforts to investigate the attacks and
Page 10 – The Commissioner


       prevent future incidents. However, we have been limited in our ability to respond
       to these concerns as a consequence of balancing priority matters with existing
       resources. We believe more resources should be directed to investigating and
       prosecuting such crimes.

Protection of the SSN After the Number Holder’s Death

Finally, we must do more to protect the SSN after the number holder’s death.
SSA receives death information from a variety of sources and compiles a Death
Master File, which is updated monthly, transmitted to various Federal agencies,
offered for sale to the public, and available for access over the Internet. There is
no question this information must be accurate. However, we also believe the
practice of offering this information to the general public needs serious
consideration.

CONCLUSION
SSA and OIG promptly responded to the challenge of ensuring SSN integrity as a part
of homeland security efforts. We recognize that “business as usual” is no longer
permissible and have committed significant resources and energy in developing
improved procedures in our enumeration business practice. Despite SSA’s commitment
to this endeavor, more needs to be done to ensure the SSN’s link to homeland security
is strong and durable. We believe that the current efforts of the Executive Branch and
the Congress to work together to address these concerns will continue.

AGENCY COMMENTS
As we made no recommendations in the report, SSA elected not to provide a formal
response. Rather, the Agency provided minor technical comments, which we have
incorporated where appropriate.




                                             James G. Huse, Jr.
                                     Appendices
Appendix A – Prior Office of the Inspector General Audit Reports

Appendix B – Status of Enumeration Task Force Recommendations

Appendix C – Acronyms

Appendix D – OIG Contacts and Staff Acknowledgment
                                                        Appendix A

PRIOR OFFICE OF THE INSPECTOR
GENERAL AUDIT REPORTS

  Social Security Administration Office of the Inspector General Reports
               Related to Social Security Number Integrity
Name and Common Identification Number           Date Report Issued

Canada’s Experience in Charging a User Fee
for Social Insurance Number Cards                   May 1997
(A-06-97-62003)
Management Advisory Report: Activity
Related to the Suspense File (A-03-96-31001      September 1997
and A-03-96-31002)
Follow-Up of the Internal Controls over the
Modernized Enumeration System                      March 1998
(A-04-96-44001)
Payment of Benefits to Individuals Who Do
Not Have Their Own Social Security Number          March 1998
(A-04-96-42000)
Performance Measure Audit: Timely
Issuance of Social Security Number Cards            April 1998
(A-02-97-93003)
Assessment of the Social Security
Administration’s Processing of Requests for
Social Security Numbers in Emergency                June 1998
Situations (Limited Distribution)
(A-08-97-44001)
Management Advisory Report: Using Social
Security Numbers to Commit Fraud                    May 1999
(A-08-99-42002)
Management Advisory Report: Analysis of
Social Security Number Misuse Allegations
Made to the Social Security Administration’s       August 1999
Fraud Hotline (A-15-99-92019)
Patterns of Reporting Errors and
Irregularities by 100 Employers with the Most    September 1999
Suspended Wage Items (A-03-98-31009)
Review of Controls Over Nonwork Social           September 1999
Security Numbers (A-08-97-41002)


                                        A-1
The Social Security Administration is
Pursuing Matching Agreements with New
York and Other States Using Biometric           January 2000
Technologies (A-08-98-41007)
Performance Measure Review: Reliability of
the Data Used to Measure Social Security
Number Request Processing                        March 2000
(A-02-99-01009)
Improving the Usefulness of the Social
Security Administration’s Death Master File      July 2000
(A-09-98-61011)
Effectiveness of Internal Controls in the
Modernized Enumeration System                  September 2000
(A-08-97-41003)
Procedures for Verifying Evidentiary
Documents Submitted with Original Social
Security Number Applications                   September 2000
(A-08-98-41009)
Obstacles to Reducing Social Security
Number Misuse in the Agriculture Industry       January 2001
(A-08-99-41004)
Force Processing of Magnetic Media Wage
Reports with Validation Problems                 May 2001
(A-03-99-31001)
Management Advisory Report: Review of
Service Industry Employer with Wage            September 2001
Reporting Problems (A-03-00-10022)
Audit of the Enumeration at Birth Program
(A-08-00-10047)                                September 2001
Replacement Social Security Number Cards:
Opportunities to Reduce the Risk of Improper   September 2001
Attainment and Misuse (A-08-00-10061)
Congressional Response Report: SSN
Misuse – A Challenge for the Social Security    October 2001
Administration (A-08-02-22030)
Congressional Response Report: Terrorist
Misuse of Social Security Numbers               October 2001
(A-08-02-32041)
Disclosure of Personal Beneficiary
Information to the Public (Limited             December 2001
Distribution) (A-01-01-01018)




                                         A-2
                                                                        Appendix B

Status of Enumeration Task Force
Recommendations
                         Status of Enumeration Task Force
                                 Recommendations
       Description of Recommendation                      Status as of March 30, 2002
Provide refresher training on enumeration        Ongoing. Refresher training was conducted
policy and procedures, with emphasis on          on December 19 and 20, 2001. Additionally,
enumerating non-citizens, for all involved       an interactive video training session was held
staff.                                           on January 31, 2002. During the week of
                                                 February 11, 2002, field office managers
                                                 reviewed a daily maximum of 50 non-citizen
                                                 enumeration actions. Managers provided
                                                 feedback on problems or trends. Further
                                                 action will be decided based on these
                                                 findings, which were being evaluated at the
                                                 time of this review.
Convene a joint task force between the           Ongoing. On January 3, 2002, SSA signed a
Social Security Administration (SSA), the        protocol with the DoS outlining procedures
Immigration and Naturalization Service (INS),    for SSA use of information housed in the
and the Department of State (DoS) to resolve     Refugee Data Center, which will be used to
issues involving enumerating non-citizens,       enumerate refugees. The procedure to verify
including working out procedures for verifying   immigration documents for refugees before
INS documents before the Social Security         assigning an SSN became effective in
number (SSN) is assigned.                        February 2002.

                                                 SSA, INS, and DoS are also working
                                                 together to implement the Enumeration at
                                                 Entry program. Additionally, the INS has
                                                 taken several steps to improve the timeliness
                                                 of its data entry process. Once corrected,
                                                 SSA will begin electronically verifying all non-
                                                 citizen immigration documents before
                                                 assigning an SSN. However, it is our
                                                 understanding that corrections required by
                                                 INS have been delayed. Therefore, SSA
                                                 may not begin to implement this policy until
                                                 late in Calendar Year 2002.
Eliminate driver’s licenses as a reason for a    Completed. SSA notified the governors of all
non-work SSN.                                    States in February 2002, and the policy went
                                                 into effect on March 1, 2002.



                                          B-1
Provide an alternative to issuing a Numident     Completed. The “NUMI-lite” went into
printout for SSN verification.                   production in SSA field offices in
                                                 March 2002. This printout provides less
                                                 identification information and therefore is less
                                                 likely to facilitate identity theft.
Lower the age tolerance from 18 to 12 for        Ongoing. The policy change needed to
mandatory interview procedures, including        lower the age tolerance for mandatory
verification of birth records before             interviews from 18 to 12 requires a regulatory
enumeration for all applicants for original      change. Additionally, eliminating an existing
SSNs and require evidence of identity for all    waiver provision for those under age 7 will
children, regardless of age.                     require a regulation. However, in the interim,
                                                 SSA will rely on refresher training to
                                                 strengthen existing policies. Beginning in
                                                 May 2002, SSA will verify birth records for all
                                                 applicants for original SSNs over the age
                                                 of 1.

Determine the feasibility of photocopying (or    Ongoing. Between February and March
scanning) all documentary evidence               2002, SSA conducted a pilot in two field
submitted with SSN applications.                 offices to photocopy all evidence submitted
                                                 in conjunction with SSN applications and
                                                 ship them weekly to SSA’s record storage
                                                 facility for scanning. As of April 1, 2002, SSA
                                                 was conducting the cost-benefit analysis for
                                                 the pilot.
Change the Modernized Enumeration                Completed. The audit trail went into
System to provide an electronic audit trail,     production in mid-December 2001.
regardless of the mode used to process SSN
applications.
Implement the SSN Verification System.           Ongoing. SSA implemented a pilot of the on-
                                                 line version in April 2002.




                                           B-2
                                                    Appendix C

Acronyms
DoJ        Department of Justice
DoS        Department of State
FBI        Federal Bureau of Investigation
INS        Immigration and Naturalization Service
OA         Office of Audit
OIG        Office of the Inspector General
SS         Social Security
SSA        Social Security Administration
SSN        Social Security Number
                                                                        Appendix D

OIG Contacts and Staff Acknowledgments

OIG Contacts
   Kimberly A. Byrd, Director, Southern Audit Division, (205) 801-1605

   Jeffrey Pounds, Deputy Director, Birmingham Field Office, (205) 801-1606

Staff Acknowledgments
In addition to those named above:

   Kathy Buller, Counsel to the Inspector General

   George Penn, Senior Attorney

   Tom Sipes, Special Agent-in-Charge

   Charles Lober, Senior Auditor

   Kathy Youngblood, Senior Auditor

   Susan Phillips, Auditor

   Kimberly Beauchamp, Writer/Editor

For additional copies of this report, visit our web site at www.ssa.gov/oig or contact the
Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375. Refer to
Common Identification Number A-08-02-22077.
                            DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                1
Management Analysis and Audit Program Support Staff, OFAM                     10
Inspector General                                                              1
Assistant Inspector General for Investigations                                 1
Assistant Inspector General for Executive Operations                           3
Assistant Inspector General for Audit                                          1
Deputy Assistant Inspector General for Audit                                   1
 Director, Systems Audit Division                                              1
 Director, Financial Management and Performance Monitoring Audit Division      1
 Director, Operational Audit Division                                          1
 Director, Disability Program Audit Division                                   1
 Director, Program Benefits Audit Division                                     1
 Director, General Management Audit Division                                   1
Team Leaders                                                                  25
Income Maintenance Branch, Office of Management and Budget                     1
Chairman, Committee on Ways and Means                                          1
Ranking Minority Member, Committee on Ways and Means                           1
Chief of Staff, Committee on Ways and Means                                    1
Chairman, Subcommittee on Social Security                                      2
Ranking Minority Member, Subcommittee on Social Security                       1
Majority Staff Director, Subcommittee on Social Security                       2
Minority Staff Director, Subcommittee on Social Security                       2
Chairman, Subcommittee on Human Resources                                      1
Ranking Minority Member, Subcommittee on Human Resources                       1
Chairman, Committee on Budget, House of Representatives                        1
Ranking Minority Member, Committee on Budget, House of Representatives         1
Chairman, Committee on Government Reform and Oversight                         1
Ranking Minority Member, Committee on Government Reform and Oversight          1
Chairman, Committee on Governmental Affairs                                    1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                         1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                         1

Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                               1
Social Security Advisory Board                                               1
AFGE General Committee                                                       9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                        Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
the Agency, as well as conducting employee investigations within OIG. Finally, OEO
administers OIG’s public affairs, media, and interagency activities and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                    Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
